No. 20-222

 

IN THE

Supreme Court of the United States

GOLDMAN SACHS GROUP, INC., ET AL.,

Petitioners,
Vv.

ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

BRIEF FOR RETAIL LITIGATION CENTER, INC.
AS AMICUS CURIAE
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,149 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 24, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
